No. 19-543

3fn l!Cbe

supremt Court of the niteb gotatesS
JEFFREY WILLS LUSK,
Petitioner,
V.
CROWN POINTE CARE CENTER et al.,
Respondents.

•
On Petition For Writ Of Certiorari
To The Tenth District Court Of Appeals
For The State Of Ohio

•
REPLY BRIEF IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI

•
JEFFREY WELLS LUSK
5219 Ileathmoor Street
Columbus, Ohia 43235
(614) 558-0072
jeffreylexus@aol.com
Petitioner
pro se

RELATED CASES
In the Matter of the Estate of Dorothy Jean Ross
Lusk, No. 580770, Probate Court of Franklin
County, Ohio. Judgment entered Jan. 14, 2019.

AV

t

33n

1 1
'

1
,

1

TABLE OF CON'T'ENTS
Page
RELATED CASE
2
ARGUMENT
2
I. Respondent argues the following lies:
Petitioner's Case does not involve fed2
eral laws (4211S.C. § 483)
Petitioner is not the Sole Beneficiary
2
of decedent's Estate
Petitioner's Appeal is not based upon
his Estate survival action
Statutory beneficiaries are the same
as Estate beneficiaries
28 U.S.C. §1254(1), 28 U.S.C. §1257(a),
U.S.Sup.Ct.R.10(b)(c), U.S. Const. amend.
I, and Ruling decedent's Estate is a
2
"person", do not confer Jurisdiction
II. The right to self-representation is not defeated by the cause of action of the underlying case. 28 U.S.C. §1654 does not bar an
executor and sole beneficiary of an estate
from representing the estate pro se in a survival action, or any other type of action,
where no other interests are at stake. Respondent intentionally attempts to mislead
this Court by stating the lie that Petitioner
is not the Sole Beneficiary of decedent's Estate

TABLE OF CONTENTS — Continued
Page
III. Self-representation of one's own interests
does not constitute the unauthorized practice of law. Decision of Tenth District Court
of Appeals for the state of Ohio does not rest
on adequate state grounds that preclude
granting of the petition for writ of Certio9
rari
10
CONCLUSION
APPENDIX
Magistrate's Order Denying Motion to Intervene, Probate Court of Franklin County, Ohio,
App. 1
(Nov. 2, 2018)
Magistrate's Order and Judgment Entry, Probate Court of Franklin County, Ohio, (Jan. 14,
App. 3
2019)

iv
TABLE OF AUTHORITIES
Page
CASES
Bass v. Leatherivood, 788 F.3d 228 (6th Cir.
2015)
Guest v. Hansen, No. 08-4642 (2d Cir. 2010)
Heath v. Teich, 10th Dist. No. 06AP-1018, 2007Ohio-2529
In the Matter of the Estate of Dorothy Jean Ross
Lusk, No. 580770, Probate Court of Franklin
County, Ohio (App.1)
Rodgers v. Police, 819 F.3d 205 (5th Cir. 2016)

1, 8
1
9

4, 8
1

Rowland v. California Men's Colony, 506 U.S.
1, 5, 10
194 (1993)
CONSTITUTION
5

U. S. Const. amend. I
STATUTES
Freedom from Abuse, Neglect, and Exploitation,
42 CFR § 483.12

3

28 U.S.C. § 1254(1)

5

28 U.S.C. § 1257(a)
Appearance Personally or by Counsel,
28 U.S.C. § 1654

5

Ohio Revised Code § 2125.02
Survival of Actions,
Ohio Revised Code § 2305.21

passim
5
4

TABLE OF AUTHORITIES — Continued
Page
RULES
Supreme Court Rule 10(b)(c)
Supreme Court Rule 15.2.
OTHER AUTHORITIES
Respondents' Appendix 1. Petitioner's Complaint
in the Court of Common Pleas of Franklin
—
County, Ohio (April 6, 2018)

5
3

3, 4

1
This request for review arises from the precedential Decision of the Tenth District Court of Appeals for
the state of Ohio that an estate is a "person", thereby,
Petitioner may not represent decedent's Estate pro se
because he would be representing another "person"
other than himself; the Estate's Executor and Sole
Beneficiary. This ruling is in direct contradiction of this
Court's ruling in Rowland v. California Men's Colony,
506 U.S. 194 (1993)„that a "person" is defined uniquely
as a "human being", which pursuant to the Supremacy
Clause triggers this Court's jurisdiction.
Further, the Decision created a conflict with the
unified Decisions of the United States Courts of Appeals for the .Second, Fifth, and Sixth Circuits' on this
issue, all ruling that the executor and sole beneficiary
of an estate without creditors may represent the estate
pro se, which created the unnecessary need to forum
shop in the future.
Since the underlying Case has never been adjudicated on its merits, Respondents' self-appointed attempt to adjudicate the Case in its Opposition to
persuade this Court to Deny review is inappropriate,
and inaccurate on its face. Respondents conveniently
omitted the Affidavits of Merit attached to Petitioner's
Complaint, which included the Franklin County Coroner's Verdict that the injuries inflicted on decedent by
Respondents (that they covered-up) caused decedent's
Bass v. Leatherwood, 788 F.3d 228 (6th Cir. 2015),
Guest v. Hansen, No. 08-4642 (2d Cir. 2010), and Rodgers v. Police, 819 F.3d 205 (5th Cir. 2016).
1

See

2
death. Decedent did not fall, she was dropped, and Respondents lied about the incident ever happening. The
Coroner's investigation and subsequent Forensic investigation were never allowed to be introduced into
evidence due to the Case being Dismissed on grounds
other than on its merits. Thus, there is no Decision on
its merits to review, and certainly not the Respondents
unfounded and biased opinion and mischaracterization of what happened and interpretation of the Complaint.

ARG NT
I.

Respondent argues the following lies:
Petitioner's Case does not involve federal laws (42 U.S.C. § 483)
Petitioner is not the Sole Beneficiary of
decedent's Estate
Petitioner's Appeal is not based upon
his. Estate survival action
Statutory beneficiari&s are the same as
Estate beneficiaries
28 U.S.C. §1254(1), 28 U.S.C. §1257(a),
U.S.Sup.Ct.R.10(b)(c), U.S. Const. amend.
I, and Ruling decedent's Estate is a "person", do not confer Jurisdiction

At page 2 of its Brief In Opposition, Respondents
push the falsehood (lie) that Petitioner - although the
non-movant here - "provided no specific [F] ederal laws

3
governing care of the elderly in his complaint or in any
subsequent proceedings in the state courts of Ohio".
Paragraphs 20 and 21 of Petitioner's Complaint, found
in Respondents' Brief in Opposition page App. 8, states
violations of 42 C.F.R. 483 et seq., which impeaches Respondents' false (lie) statement. Petitioner's specific inclusion of 42 C.F.R. 483 et seq. in his original
Complaint triggers this Court's jurisdiction because it
arises from Petitioner's original cause of action, and because a federal statute that creates a cause of action
conferring jurisdiction to state courts does not oust federal courts of jurisdiction. The courts have concurrent
jurisdiction.
At page 3, of its Brief In Opposition, Respondents
push the falsehood (lie) that Petitioner is not the Sole
Beneficiary of decedent's Estate. Respondents intentionally attempt to mislead this Court on this issue.
This is an intentional misuse of their obligation set
forth in Supreme Court Rule 15.2 to address any misstatement of fact or law in the petition.
Wrongful death actions benefit statutory beneficiaries. Survival actions benefit estate beneficiaries.
Estate beneficiaries have no involvement in a wrongful
death action. The Probate Court of Franklin County,
Ohio Ruled that Petitioner was appointed Executor pro
se of decedent's Estate September 9, 2016, the Estate
was classified as an Estate for Right of Action only (no
creditors), decedent's Will named Petitioner as Sole
Beneficiary, and made no provision for her daughter,
Barbara L. Proctor, pursuant to ITEM III of decedent's
Will, which states:

4
"In making this, my Last Will and Testament, I
have considered my Daughter, BARBARA LUSK
PROCTOR, and have intentionally made no provision
for the said BARBARA LUSK PROCTOR herein."
See, In the Matter of the Estate of Dorothy Jean
Ross Lusk, No. 580770, Probate Court of Franklin
County, Ohio. App; 1. This is prima facie evidence that
impeaches Respondents' lie that Petitioner is not the
Sole Beneficiary of decedent's Estate.
Ohio -law-recognizes -separate• actions -for wrongful
death and survivorship claims. Causes of action for injuries to person or property survive the death of the
person entitled to bring such an action. Ohio Rev. Code
§ 2305.21. A representative of the decedent (executor)
may bring such an action in the name of the decedent
(not estate), as if the decedent had lived. The damages
secured as a result of a survival action lawsuit would
be received by the decedent's estate, with distribution
made according to the decedent's will (estate beneficiaries). If decedent had no will, distribution would be
made through the law of descent and distribution
(statutory beneficiaries).
Petitioner filed a wrongful death and survival action, which are separate actions. See Respondents'
Brief In Opposition as follows: para. 15. at App. 7, para.
20 and 21 at App. 8, para. 25 at App. 9, and para. 36 at
App. 11.
A claim for wrongful death is brought for the exclusive benefit of the surviving spouse, children, parents of the decedent and other next of kin. Ohio Rev.

5

Code § 2125.02(A). The surviving spouse, children and
parents are rebuttably presumed to have suffered
damages by reason of the wrongful death, but adult
children do not enjoy the same rebuttable presumption. They must prove damages. Thus, adult children
are potential statutory beneficiaries until a recovery is
made and they prove damages at a hearing in. Probate
Court. Therefore, all statutory beneficiaries do not
have a right to prosecute wrongful death claims, only
potentially benefit from them, 'as such, the personal
representative is the only party allowed by statute to
prosecute wrongful death claims, and is the only
named plaintiff a trier of fact could adjudicate. Thus,
the personal representative does not represent the
statutory beneficiaries, and does not conduct the unauthorized practice of law by prosecuting wrongful death
claims pro se.
Respondents argue 28 U.S.C. §1254(1), 28 U.S.C.
§1257(a), U.S.Sup.Ct.R.10(b)(c), U.S. Const. amend. I,
and Ruling decedent's Estate is a "person", do not confer Jurisdiction of Petitioner's request for review. By
the language of those Statutes and Rules, the facts of
this matter are consistent with conferring jurisdiction.
The fact the Tenth District Court of Appeals for the
state of Ohio made the precedential ruling an estate is
defined as a "person", triggers jurisdiction, as its Ruling is in direct contradiction of this Court's Ruling in
Rowland v. California Men's Colony, 506 U.S. 194
(1993), that a "person" is defined uniquely as a "human
being".

6
Self-representation of one's own interests, codified
at 28 U.S.C. §1654, is a federal statute of the United
States drawn into question by not being followed by
the Tenth District Court of Appeals for the state of
Ohio in this matter, which denied Petitioner his right
under said statute to self-representation of his own
interests, which said action is repugnant to the aforementioned statute. That violation triggers the jurisdiction of this Court.
Petitioner has the First Amendment to
Further,
__
the U.S. Constitution Right to petition the Government
for a redress of grievances in all courts of the land, and
when his Case was Dismissed for reasons other than
on its merits, this right was violated. Allowing only the
filing of a Case only to Dismiss it for unlawful reasons,
violates the intent of the right. That violation triggers
the jurisdiction of this Court.
The question presented by Petitioner should be decided by this Court, and could, if so desired, be the vehicle to require all courts in the land to follow federal
appellate decisions with the same facts, instead of only
having to follow this Court's decisions.
The cases cited by Respondents to argue that 28
U.S.C. §1654 does not apply to Petitioner's case" are all
regarding criminal cases for defendants or regarding
multiple parties at interest, which none apply to this
matter, where only one party has an interest at stake.
There exists no gciod reason why decisions of U.S.
Circuit Courts of Appeals on the same issues should
not be followed by all courts in the land, when federal

7
courts follow state court decisions on the same issues.
After all, is it fair to say federal justices are not at least
equal to state justices in their ability to administer justice? Is it just to have two different standards of review
for the same identical issue just because you are in two
different buildings? That is not the intent of our founders when they created the court system for our country.
II. The right to self-representation is not defeated by the cause of action of the underlying case. 28 U.S.C. §1654 does not bir an
executor and sole beneficiary of an estate
from representing the estate pro se in a survival action, or any other type of action,
where no other interests are at stake. Respondent intentionally attempts to mislead
this Court by stating the lie that Petitioner
is not the Sole Beneficiary of decedent's Estate.
At page 8 of its Brief In Opposition, Respondents
push the falsehood '(lie) that Petitioner is not the Sole
Beneficiary of decedent's Estate he seeks to represent,
and that his request for review involves his wrongful
death action. Respondents do not understand, or do not
wish to understand, the difference between the statutory beneficiaries of a wrongful death proceeding and
the estate beneficiaries of a survival proceeding.
Petitioner has never anywhere in the Record argued 28 U.S.C. §1654 permits prosecution of wrongful
death claims by a pro se executor of an estate with multiple beneficiaries, or even only one beneficiary, as an

8
estate has nothing to do with a wrongful death proceeding. An estate is involved in survival proceedings.
This distinction, which Respondents assert the Petitioner has refused to acknowledge since the inception
of his Case, is solely the distinction Respondents refuse
to acknowledge, and go so far as to state lies to push
the lie forward. See, in the Matter of the Estate of Dorothy Jean Ross Lusk, No. 580770, Probate Court of
Franklin County, Ohio. App. 1. This is prima facie evidence that impeaches Respondents' lie that Petitioner
is not the Sole Beneficiary ofdecedent's Estate.
At page 9 of its Brief In Opposition, Respondents
push the falsehood (lie) that Petitioner's Case is unlike
Bass v. Leatherwood, 788 F.3d 228 (6th Cir. 2015),
which involved only beneficiaries of the estate's' they
wished to represent and thus the only individuals with
an interest in the outcome of the case."Petitioner is the
only individUal with an 'interest in the outcome of his
survival action, being the Executor and Sole Beneficiary of decedent's Estate without creditors, as determined by the Probate Court of Franklin-County, Ohio.
Which impeaches Respondents' argument otherwise.

9
III. Self-representation of one's own interests
does not constitute the unauthorized practice of law. Decision of the Tenth District
Court of Appeals for the state of Ohio does
not rest on adequate state grounds that
preclude granting of the petition for writ
of Certiorari.
At page 12 and 13 of its Brief In Opposition, Respondents plish the falsehood (lie) that the Tenth District Court of Appeals for the state of Ohio decided a
question of federal law based upon state law ground
that is independent of the federal question and adequate to support the judgment. Nothing of the kind
took place. The Court defined decedent's Estate to be a
"person", based upon a dictionary definition, not any
state of Ohio statutory or common law, to justify ruling
Petitioner would then, be representing another "person" other than himself. Thus, justifying its Decision to
Dismiss Petitioner's Appeal based' upon the threshold
issue of claiming they did not have jurisdiction to hear
the Appeal, and ruling Petitioner was guilty of the unauthorized practice of law. Their ruling was contrary to
their own decision in Heath v. Teich, 10th Dist. No.
06AP-1018, 2007-Ohio-2529, which they justified by
claiming it was only dictum in Heath that it was permissible to represent an estate pro se as its sole beneficiary. Defining an estate to be a "person" is a violation
of the Supremacy Clause, whereby, the Court refused

10
to follow this Court's definition of a "person" in Rowland v. California Men's Colony, 506 US. 194 (1993), as
being a human being, which triggers jurisdiction by
this Court.
•
CONCLUSION
For the foregoing reasons, as well as those contained in the Petition for Certiorari, the Court should
grant _a writ _of certiorari.
Respectfully submitted,
JEFFREY WILLS LUSK
5219 Heathmoor Street
Columbus, Ohio 43235
(614) 558-0072
jeffreylexus@aol.com
Petitioner
pro se
November 27, 2019

App. 1
IN THE PROBATE COURT OF
FRANKLIN COUNTY, OHIO
ROBERT G. MONTGOMERY, JUDGE
In the Matter of the Estate of :
: Case No. 580770
Dorothy Jean Ross Lusk
MAGISTRATE'S ORDER
DENYING MOTION TO INTERVENE

(Filed Nov. 2, 2018)
This Magistrate's Order is issued pursuant to
Civ.R. 53(D)(2). Any motion to set aside this Order
shall comply with Civ.R. 53(D)(2)(b).
This matter comes before the court upon the August 6, 2018, motion of Jeffrey Wills Lusk, pro se executor of the estate of Dorothy Jean Ross Lusk, which
asks that this court intervene in an appellate case to
"enforce the statutory right of Executor to represent
said Estate pro se."
Mr. Lusk was appointed executor pro se September 9, 2016. The estate was classified as an estate for
Right of Action only. The decedent's will named Mr.
Lusk, her son, as sole beneficiary, making no provision
for her daughter, Barbara L. Proctor. Mr. Lusk initiated
a pro se wrongful death case as executor, now the subject of Tenth District Court of Appeals Case No. 18-AP07549.
The court notes that R.C. 2125.02(A)(1) requires a
wrongful death action to be brought "for the exclusive

App. 2
benefit of the surviving spouse, the children, and the
parents of the decedent" and "the other next of kin of
the decedent." "[Tihe spouse, children, and parents of
the decedent" are "rebuttably presumed to have suffered damages," while the other "next of kin must prove
their damages." In re Estate of Payne, 10th Dist. Frsnklin No. 04AP-1176, 2005-Ohio-2391,11 7.
Mr. Lusk's request for the probate court to intervene in an appeal to the Tenth District Court of Appeals is beyond the jurisdiction of this court. As such,
Mr. Lusk's motion is DENIED. Mr. Lusk is advised to
seek the assistance of legal counsel to complete the estate.
IT IS SO ORDERED.
/s/ Kelly A. Green
Kelly A. Green, Magistrate

App. 3
PROBATE COURT OF
FRANKLIN COUNTY, OHIO
ROBERT G. MONTGOMERY, JUDGE
IN THE MAnim OF THE &TATE OF :
: CASE No. 580770
DOROTHY JEAN Ross LUSH
JUDGMENT ENTRY DENYING MOTION
TO SET ASIDE MAGISTRATE'S ORDER

(Filed Jan. 14, 2019)
This matter is before the court upon the Motion
filed November 9, 2018, requesting that the court set
aside the Magistrate's Order Denying Motion to Intervene filed November 2, 2018.
Any party may file a motion with the court to set
aside a magistrate's order. Civ.R. 53(D)(2)(b). The motion shall state the moving party's reasons with particularity and shall be filed not later than ten days after
the magistrate's order is filed. Id. The pendency of a
motion to set aside does not stay the effectiveness of
the magistrate's order, though the magistrate or the
court may, by order, stay the effectiveness of a magistrate's order. Id.
On September 9, 2016, the court appointed Jeffrey
Wills Lusk ("Mr. Lusk") the pro se administrator of the
estate of Dorothy Jean Ross Lusk for right of action.
On August 6, 2018, Mr. Lusk moved this court to "intervene in Tenth District Court of Appeal Case Number: 18-AP-07549 forthwith to enforce the statutory
right of Executor to represent said Estate pro se."

App. 4
A probate court is a court of limited jurisdiction,
its proceedings restricted to those actions which are
permitted by statute and by the Constitution. State ex
rel. Lee v. Trumbull Cty. Probate Court, 83 Ohio St.3d
369, 372, 1998-Ohio-51, 700 NE.2d 4; Cain v. &flitch,
10th Dist. Franklin No. 16A1"-758, 2018-Ohio-1695,
120. The court has statutory jurisdiction to grant letters testamentary, and it appointed Mr. Lusk the executor of this estate pursuant to that authority. R.C.
2101.24(A)(1)(b).
However, while R.C. 2101.24(A)(1)(c) gives this
court jurisdiction to direct the conduct of an executor,
neither the Ohio Revised Code nor the Ohio Constitution grants this court the much broader authority to
direct a superior court's rulings with regard to an executor. A court of appeals is the wrong venue to argue
that a trial court intervene—in other words, Mr. Lusk's
argument would not be made at the appellate court
level by a trial court. Mr. Lusk's request is beyond the
scope of the court's jurisdiction.
Accordingly, upon independent review and careful consideration, the Executor's Motion to Set Aside ,
Magistrate's Order Denying Executor's Motion to Intervene is not well taken and is DENIED. The Magistrate's Order Denying Motion to Intervene issued
November 2, 2018, is ADOPTED and AFFIRMED.

App. 5
IT Is SO ORDERED.
1-14-19
Date

/s/ Robert G. Montgomery
Robert G. Montgomery,
Judge

